No. 21-___________

In the
United States Supreme Court

Anthony Sistrunk,

Petitioner,

v.
United States of America,
Respondent,

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

MOTION FOR LEAVE TO PROCEED In Forma Pauperis

Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com

In the
Supreme Court of the United States
No. 21-__________

Anthony Sistrunk,
Petitioner,
v.
United States of America,
Respondent,

MOTION FOR LEAVE TO PROCEED In Forma Pauperis
Petitioner, Anthony Sistrunk, respectfully moves this Court for leave to file the
attached petition for writ of certiorari without prepayment of costs and to proceed In
Forma Pauperis; and offers the following information in support of his motion:
1. Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding.
2. Petitioner sought leave to proceed in forma pauperis before the District Court
for the Middle District of Pennsylvania pursuant to the Criminal Justice Act,
18 U.S.C. §3006A.
3. By Order dated September 23, 2014 the district court appointed instant
counsel. (MDPA Doc. 121, attached hereto as Petitioner’s Exhibit 1)

1

4. Petitioner also sought leave to proceed in forma pauperis before the Third
Circuit Court of Appeals pursuant to the Criminal Justice Act, 18 U.S.C.
§3006A.
5. By Order dated July 3, 2018 the circuit court appointed instant counsel. (3d
Cir. Doc. 3002, attached hereto as Petitioner’s Exhibit 2)
Wherefore, Petitioner, Anthony Sistrunk, by and through counsel, respectfully
moves this Court for permission to proceed In Forma Pauperis.
Respectfully submitted,

Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com

2

